<html>
<title> - MARKUP OF H.R. 1196, H.R. 2510, H.R. 1604, H.R. 512, H.R. 2728, H.R. 1752, H.R. 2185, H. CON. RES. 135, H. CON. RES. 131, AND A RESOLUTION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                        MARKUP OF SEVERAL BILLS

=======================================================================

                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                 HELD IN WASHINGTON, DC, JUNE 10, 2009

                               __________

      Printed for the use of the Committee on House Administration



                       Available on the Internet:
     http: //www.access.gpo.gov /congress /senate /senate05sh.html


                                 ______


                     U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2009
52-325


For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001





                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              DANIEL E. LUNGREN, California
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    KEVIN McCARTHY, California
CHARLES A. GONZALEZ, Texas           GREGG HARPER, Mississippi
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama

                           Professional Staff

                 S. Elizabeth Birnbaum, Staff Director
               Victor Arnold-Bik, Minority Staff Director

 
 MARKUP OF H.R. 1196, H.R. 2510, H.R. 1604, H.R. 512, H.R. 2728, H.R. 
                            1752, H.R. 2185,
          H. CON. RES. 135, H. CON. RES. 131, AND A RESOLUTION

                              ----------                              


                        WEDNESDAY, JUNE 10, 2009

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:10 a.m., in Room 
210, Cannon House Office Building, Hon. Robert A. Brady 
[chairman of the committee] presiding.
    Present: Representatives, Brady, Lofgren, Capuano, 
Gonzalez, Davis of California, Lungren, McCarthy, and Harper.
    Staff Present: Liz Birnbaum, Staff Director; Jamie Fleet, 
Deputy Staff Director; Charlie Howell, Chief Counsel; Tom 
Hicks, Senior Election Counsel; Matt Pinkus, Professional 
Staff/Parliamentarian; Khalil Abboud, Professional Staff; Kyle 
Anderson, Press Director; Kristin McCowan, Chief Legislative 
Clerk; Victor Arnold-Bik, Minority Staff Director; Peter 
Schalestock, Minority Counsel; Karin Moore, Minority 
Legislative Counsel; Alec Hoppes, Minority Professional Staff; 
and Salley Collins, Minority Press Secretary.
    The Chairman. I would like to call the Committee on House 
Administration to order. I would like to thank everybody here 
and ask for your indulgence. I am going to jump around a little 
bit from the order. So if I appear confused, it is because I 
am, and I have to blame the people behind me. And so we are 
going to start with H.R. 2510.
    I have no opening statement. And I would like to ask Mr. 
McCarthy if he would like to say anything.
    Mr. McCarthy. In the pursuit of time, no, I am good.
    The Chairman. Okay. Good. H.R. 2510, the Absentee Ballot 
Track, Receive, and Confirm Act.
    This bill will give grants to States to establish absentee 
ballot tracking systems. The program is completely voluntary. 
It will improve transparency and voter confidence by allowing 
voters to receive accurate and updated information on the 
status of their ballot. Voters could determine whether ballots 
were counted by checking on line or calling by a 1-800 phone 
number. In fact, a few States, including California and Kansas, 
have already set up an effective tracking system, with minimal 
start-up costs.
    In the long run, election officials can save time and money 
as they field fewer phone calls from voters inquiring about 
status of absentee ballots.
    I would like to now recognize the bill's sponsor, 
Representative Susan Davis, for an opening statement.
    Mrs. Davis of California. Okay. Thank you very much. Thank 
you, Chairman Brady and Ranking Member Lungren. I certainly 
appreciate your including H.R. 2510, the Absentee Ballot Track, 
Receive, and Confirm, or the TRAC Act, in today's markup. As 
you know, Mr. McCarthy and I have really worked closely 
together on H.R. 2510, and I certainly appreciate my California 
colleague's input, additions, and support of this important 
legislation.
    As you, I think, initially alluded to, and to give a few 
more details, the bill is modeled on a successful piece of 
California legislation that allows voters to go on line or call 
a phone number to easily find out whether an elections office 
has sent out a ballot, whether a completed ballot has arrived 
back at the registrar's office, and whether the registrar has 
actually counted the ballot, and if not, why not.
    In San Diego County, over 98,000 voters checked their 
ballot status on line last November. A lot of people out there 
want to know. And that is what this is all about. Tracking 
gives voters more access and takes a burden off the phone lines 
at election offices. And tracking is particularly useful for 
men and women in uniform serving overseas.
    The TRAC Act would allow the Federal Government to 
reimburse States for establishing tracking systems. But I want 
to be clear that it would not require any State to set up a 
tracking system.
    I want to ask my colleagues on both sides of the aisle to 
join Mr. McCarthy and me in supporting this effort to 
strengthen the democratic process and give American voters the 
electoral certainly they deserve.
    I have letters of support that I will be submitting for the 
record from the Association of American Residents Overseas, 
AARO, Common Cause, Postal Regulatory Commission, the Student 
Association for Voter Empowerment, or SAVE, and the Federation 
of American Women's Clubs Overseas.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.001
    
    [GRAPHIC] [TIFF OMITTED] T2325A.002
    
    [GRAPHIC] [TIFF OMITTED] T2325A.003
    
    [GRAPHIC] [TIFF OMITTED] T2325A.004
    
    [GRAPHIC] [TIFF OMITTED] T2325A.005
    
    [GRAPHIC] [TIFF OMITTED] T2325A.006
    
    Mrs. Davis of California. Thank you, Mr. Chairman. Look 
forward to the discussion.
    The Chairman. Thank you. I would like to recognize the 
bill's cosponsor, Representative McCarthy.
    Mr. McCarthy. Mr. Chairman, thank you very much. I just 
want to thank my colleague, Susan Davis, for working on this 
collaboratively. And I believe this will bring accountability 
back in the process and will be very positive throughout the 
Nation as well. I yield back.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I move to strike the last word.
    The Chairman. So ordered. Sure.
    Ms. Lofgren. I will just be very brief. I think this is a 
very good measure, obviously with bipartisan support. I would 
just report to the committee that we did have a hearing that 
included testimony about this concept, and there was universal 
support for it among our witnesses. So I thought that the 
committee would want to know that, and I yield back.
    The Chairman. Thank you. Anybody else?
    I will now call up and lay before the committee H.R. 2510. 
Without objection, the first reading of this bill is dispensed 
with, and the bill is considered as read, and open for 
amendment at any point.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.007
    
    [GRAPHIC] [TIFF OMITTED] T2325A.008
    
    [GRAPHIC] [TIFF OMITTED] T2325A.009
    
    [GRAPHIC] [TIFF OMITTED] T2325A.010
    
    [GRAPHIC] [TIFF OMITTED] T2325A.011
    
    The Chairman. Is there any debate? Are there any 
amendments? If not, I now move to report H.R. 2510 favorably to 
the House. The question is on the motion.
    All in favor signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it, and the bill 
is reported to the House. Without objection, the motion to 
reconsider is laid upon the table.
    Our next order of business is H.R. 1752. This is a bill to 
provide that the usual day of paying salaries in the House of 
Representatives may be established by regulations of the 
Committee on House Administration. The House Administration 
currently pays the staff once a month, and I have been 
contacted by many staff members that when they get paid once a 
month, their third and fourth week they are always a little 
short. They thought it would be better if this agency followed 
every other Federal and State agency, and have them get paid--
and have them get paid twice a month instead of once a month. 
It does not affect our pay, it does not affect the Congress 
people's pay, it just affects our staff. Anybody have any 
comments? Statements?
    Mr. McCarthy. I have a statement.
    The Chairman. Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman. As we strive to 
ensure that the House of Representatives operates in an 
increasingly efficient and cost-effective manner, I am pleased 
to support this bill, which will enable the committee to better 
access and implement potentially cost-saving practices. My 
understanding is that the preliminary financial assessment 
suggests that shifting the present pay cycle to a biweekly pay 
cycle with a lag time would allow the House to handle payroll 
with a greater accuracy and ease.
    However, I would like to ask that the Chair of this 
committee seek the input of the nearly 10,000 House employees 
that would be impacted before making any changes under 
consideration. Thank you, and I reserve the balance of the 
time.
    The Chairman. Any other questions or any other statements? 
Mr. Lungren.
    Mr. Lungren. No. Just thank you for trying to accommodate 
the schedule that I have today.
    The Chairman. Okay. I now call up and lay before the 
committee H.R. 1752. Without objection, the first reading of 
the bill is dispensed with, and the bill is considered as read, 
and open for amendment at any point.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.012
    
    [GRAPHIC] [TIFF OMITTED] T2325A.013
    
    The Chairman. I will now offer amendments for the members. 
Without objection, the amendment is considered as read.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.014
    
    The Chairman. The amendment would make a permanent change 
to the law affecting the House staff gym. Everyone in the 
military services has officers working here in the House to 
assist our offices. Last Congress we passed a resolution 
letting these folks become members of the House Gym. Rather 
than passing a similar resolution every Congress, this language 
would make the gym membership permanently available to them.
    Is there any debate on my amendment? Any questions? If 
there is no further debate, the question is on the amendment.
    All those in favor signify by saying aye.
    Any opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to. Are there any additional amendments?
    If not, I move to report H.R. 1752, as amended, favorably 
to the House.
    All those in favor signify by saying aye.
    Any opposed?
    In the opinion of the Chair, the ayes have it, and the bill 
is amended, and it is ordered reported to the House. Without 
objection, the motion to reconsider is laid upon the table.
    The next order of business is H. Con. Resolution 135, a 
resolution that would place a marker in Emancipation Hall 
acknowledging the role of slave labor in the construction of 
the Capitol.
    Last Congress we held a hearing in which we received the 
final recommendations of the Slave Labor Task Force Working 
Group, chaired by Congressman John Lewis. This task force spent 
several years studying the role of slaves in the construction 
of the Capitol. We can never make up for that treatment of 
these laborers, or even thank them for their sacrifice. But the 
task force final report recommended a number of steps be taken 
to acknowledge the key contributions of the slave laborers. 
Several of the recommendations, including the naming of 
Emancipation Hall, have already been completed. However, the 
placement of a new marker in Emancipation Hall requires further 
legislative action.
    This resolution would provide for the installation of such 
a marker by the Architect, under the supervision of the 
committee and the Senate Committee on Rules and Administration. 
As the resolution contemplates, we will make every effort to 
use some of the original slave quarried stones that were 
removed from the original walls of the Capitol during previous 
renovations. I would now recognize Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. I am 
pleased that the committee is taking up a bill that will 
educate our visitors here to the Capitol Visitors Center on the 
contributions of enslaved African Americans in the construction 
of the U.S. Capitol. From the Slave Labor Task Force report, we 
know that the annals of history often, unfortunately, overlook 
the degree to which our Federal city rose from the labors of 
enslaved peoples. The diligent work of the task force 
highlights that slave laborers were critical in the areas of 
carpentry, brick making, brick laying, timber sawing, and stone 
quarrying, incorporating some of the most skilled elements of 
building at that time, along with some of the most physically 
demanding.
    It is appropriate, considering the historical significance 
of this longtime omission, that Emancipation Hall in the CVC 
house a formal recognition of those critical laborers. The CVC 
has attracted over 1 million visitors already. This bill will 
further enrich the visitors' experience in our Nation's Capitol 
by properly recognizing the vital contributions of the laborers 
who helped to build it.
    Thank you very much, Mr. Chairman, and I would urge support 
for this bill.
    The Chairman. Thank you. I now call up and lay before the 
committee H. Con. Resolution 135. Without objection, the first 
reading of the concurrent resolution is dispensed with, and 
without objection the current resolution is considered as read 
and open for amendment at any point.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.015
    
    [GRAPHIC] [TIFF OMITTED] T2325A.016
    
    [GRAPHIC] [TIFF OMITTED] T2325A.017
    
    [GRAPHIC] [TIFF OMITTED] T2325A.018
    
    The Chairman. Is there any debate? Are there any 
amendments? If not, I now move to report H. Con. Resolution 135 
favorably to the House.
    All those in favor signify by saying aye.
    Any opposed?
    In the opinion of the Chair, the ayes have it, and the 
concurrent resolution will be placed on to the House. Without 
objection, the motion was reconsidered and laid upon the table.
    We are now on H. Con. Resolution 131, a concurrent 
resolution introduced by Ranking Member Lungren. This is 
another resolution affecting the Capitol Visitors Center. This 
resolution will fulfill the commitment we made to several 
members last fall to add to the CVC an engraved inscription, 
the national motto In God We Trust, and the Pledge of 
Allegiance to the flag. Again, these additions require 
legislative action.
    We have received recommendations from the Architect of the 
Capitol, and we are prepared to move forward on this commitment 
once the resolution is passed.
    I would now like to recognize the Ranking Member, Mr. 
Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. And I want 
to personally thank you for your support and leadership on this 
bicameral, bipartisan resolution. We have worked with both 
sides of the aisle and both sides of the Capitol.
    The opening of the Capitol Visitors Center of December 2, 
2008 marked the end of a long process. And while the Capitol 
Visitors Center did a good job of incorporating many elements 
of the Nation's history, there were, I believe, two important 
references that were absent: the Pledge of Allegiance and our 
national motto In God We Trust. I am pleased that this 
resolution remedies this oversight, incorporates those 
important parts of our national heritage into the CVC.
    As the Chairman has said, we worked with the Architect of 
the Capitol in making sure that this is appropriate for both 
where these are going to appear in the CVC and the 
appropriateness of how they will be displayed. Both speak, that 
is both of these references speak to the consciousness and 
philosophical roots of our Founding Fathers, and serve as 
expressions of will and the resolve of the American people.
    Recognizing them at the CVC will be a testimony to our 
Nation's history and to the history that exists on these 
Capitol grounds.
    Again I thank the Chairman for your efforts in bringing 
this important matter before the committee and look forward to 
its quick passage and incorporation into the CVC.
    Thank you, and I would urge support for this bill.
    The Chairman. Thank the gentleman. I now call up and lay 
before the committee House Concurrent Resolution 131. Without 
objection, the first reading of the concurrent resolution is 
dispensed with, and the resolution will be open to amendment at 
any point.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.019
    
    [GRAPHIC] [TIFF OMITTED] T2325A.020
    
    The Chairman. Are there any additional debates? Are there 
any amendments?
    If not, I now move to report H. Con. Resolution 131 
favorably to the House.
    All those in favor signify by saying aye.
    Any opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
concurrent resolution will be reported to the House. Without 
objection, the motion to reconsider is laid upon the table.
    I would ask unanimous consent--no, not yet. Page 1. We are 
going back to page 1. We are on H.R. 1196. Authorizes the CAO 
to carry out a series of demonstration projects to reduce 
energy consumption and promote energy efficiency and cost 
savings in the House of Representatives. I would like to 
recognize the sponsor, Vice Chair Lofgren, for an opening 
statement.
    Ms. Lofgren. Thank you, Mr. Chairman. H.R. 1196, a 
bipartisan bill authored by myself and Congressman Zach Wamp, 
authorizes CAO to carry out a series of demonstration projects 
to promote the use of innovative technologies to reduce energy 
consumption, promote energy efficiency, as well as cost savings 
in the House. It authorizes the CAO to carry out these 
demonstration projects and to enter into contracts that are 
consistent with current House Administration regulations for 
the CAO.
    It requires a report to be submitted to the House 
Administration and Appropriations Committee analyzing the 
project and the extent that it reduced energy consumption, 
promoted energy efficiency, and saved costs for the House.
    It authorizes 25 million for fiscal year 2010 to carry out 
the projects until expended. It is a bipartisan measure, as I 
noted. It is very limited in scope. It will help the House 
determine which technologies are best-suited to its needs. Not 
only would this further prove our commitment to environmentally 
sustainable practices, but it could also lower the cost of 
House operations.
    Last April I hosted a discussion and meeting in Silicon 
Valley, titled ``How Going Green Saves Money, Jobs, and 
Improves Lives,'' and asked the Chief Administrative Officer to 
attend. It was a wonderful meeting, and we issued a report 
subsequent to it. But one of the things that we learned is that 
big money can be saved in some of these energy efficiency 
measures or energy measures.
    For example, Applied Materials installed 23,000 sensors in 
their office towers, and was able to reduce energy consumption 
by nearly half. The sensors paid for themselves in 8 weeks. 
Applied Materials has estimated that by installing solar panels 
it will create 900 jobs in addition to the energy.
    So we believe that this bill will help our environment, it 
will help our bottom line, and will set an example. I would 
note that the Appropriations Committee has already included 
such a provision in the appropriations bill with bipartisan 
support. Obviously, we are authorizing a substantial sum, but 
they appropriated only 2.5 million. And that was done, as I 
understand, on a voice vote with bipartisan support. So I hope 
that we can authorize what the appropriators are marching 
forward to do. And I yield back the balance of my time.
    The Chairman. I thank the gentlelady. I now call up and lay 
before the committee H.R. 1196. Without objection, the first 
reading of the bill is dispensed with, and the bill is 
considered as read, open for amendment at any point.
    Is there any----
    Mr. McCarthy. Are we going to do a statement on the bill, 
Mr. Chairman?
    The Chairman. Sure. I recognize Mr. McCarthy.
    Mr. McCarthy. I know Mr. Lungren had to depart, but we have 
a statement here on the bill as well.
    I want to thank Chairman Brady. While I strongly disagree 
with the measure before us, I believe it is important that the 
committee engage on these important matters within our 
jurisdiction. As the entity responsible for the Capitol Complex 
energy infrastructure, the Architect of the Capitol is 
responsible for meeting mandatory energy efficiency 
requirements and specific statutory mandates for the use of 
renewable energy. The AOC's effort has successfully reduced 
Capitol Complex energy consumption by more than 13 percent in 
the past 2 fiscal years. And the AOC has identified projects 
capable of meeting its 30 percent energy reduction mandate by 
2015.
    However, the AOC estimates that it will cost $300 million 
to carry out these projects. And most of these projects remain 
unfunded. The authority granted to the Chief Administrative 
Officer in H.R. 1196 conflicts with the Architect of the 
Capitol's clear responsibility for energy infrastructure in the 
Capitol Complex. The Chief Administrative Officer has neither 
the statutory responsibility nor the organizational capability 
to manage the Capitol Complex energy infrastructure.
    Given the nature of the business in the House of 
Representatives, it is essential that the energy services are 
reliable and operate without unscheduled disruptions. While the 
Architect of the Capitol has demonstrated a capacity to 
properly identify, document and measure energy-saving projects 
based upon the best value for the taxpayer, the Chief 
Administrative Officer has demonstrated no such capacity.
    In the CAO's lone foray into executing a project to 
increase energy efficiency, the House spent nearly $700,000 to 
study the relighting of the Dome of the Capitol. A Washington 
Post analysis revealed that when factoring in the costs of the 
construction and installation, the CAO's project is likely to 
have a payback period of well over a century. As such, our 
confidence in the CAO's ability to deliver value to the 
taxpayer is justifiably weak.
    H.R. 1196 is deeply flawed in its structure and in its 
spending authorization. Its enactment would result in 
organizational confusion and implementation risks that would 
undermine the collective goal of reducing energy consumption in 
the House. The CAO's demonstrated record on engaging in high-
profile but poor-value projects undermines the credibility of 
the Congress, and should not continue to be encouraged.
    Thank you, and I reserve the balance of the time.
    The Chairman. Thank the gentleman. I now call up and lay 
before the committee H.R. 1196. Without objection, the first 
reading of the bill is dispensed with, and the bill is 
considered as read and open for amendment at any point.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.021
    
    [GRAPHIC] [TIFF OMITTED] T2325A.022
    
    [GRAPHIC] [TIFF OMITTED] T2325A.023
    
    The Chairman. Is there any debate?
    Mr. McCarthy. We have amendments.
    The Chairman. Are there any amendments?
    Mr. McCarthy. Yes.
    The Chairman. Mr. Harper.
    Mr. Harper. Mr. Chairman, I have an amendment at the desk.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.024
    
    The Chairman. The gentleman is recognized.
    Mr. Harper. I recognize that the Majority is intent on 
moving this deeply flawed bill through the committee and that 
the votes exist to do so. However, I want to bring forward an 
amendment that I hope would find some bipartisan support, as it 
strengthens the authority of this committee to ensure proper 
controls are in place to avoid abusing this $25 million 
authorization.
    This amendment serves two primary purposes. The first is to 
require that any action taken under this authority be formally 
approved by the committee, regardless of the dollar threshold. 
This brings an essential accountability to the process and 
mitigates concerns that the committee Republicans have about a 
repeat of past procurement activities that circumvented the 
committee's rightful authority.
    The second objection is to ensure that the contracts 
awarded under this authority result from an open and 
competitive process. It would be an unacceptable outcome were 
the CAO to award $25 million worth of sole-source contracts 
under this authority, selecting contracts without the benefit 
of any competition or determination of best value for the 
House, and most importantly, the taxpayer.
    With that, Mr. Chairman, I urge adoption of this amendment.
    The Chairman. Thank the gentleman. Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I appreciate the spirit with 
which this amendment has been offered, but I would urge the 
committee not to agree to the amendment. The amendment is 
really duplicative I think of language already in the bill on 
page 2, line 18, which requires the CAO to enter into contracts 
consistent with House Administration regulations. And in fact, 
that does include competitive bids.
    So I think the net result of the amendment would be to add 
a layer of delay, and really no net value to the process. This 
is a pilot process. And I hope that we can avoid delay. Part of 
the reason for having the pilot is to have an ability to move 
quickly and not to bog down in bureaucratic delays. So I 
appreciate Mr. Harper's intent, but I would hope that the 
committee would reject the amendment.
    The Chairman. Is there any additional debate on the 
amendment?
    Mr. McCarthy. If I could speak to the amendment.
    The Chairman. Mr. McCarthy.
    Mr. McCarthy. I would hope we would pass this amendment of 
a little accountability, because as I go through and as I 
analyze when I read the former CAO's report, February 2007, I 
find here a lot of details of what it is working on, from 
audiovisual cabling. I mean, it goes into 50-some pages. When I 
read the current CAO's annual report, I get a lot of nice big 
pictures about staff, and I do not get the accountability of 
what we are actually working upon. So this amendment does not 
stop the bill. This amendment just brings the accountability 
that if this committee has the jurisdiction, this committee 
should actually see what is transpiring, especially at the 
dollar figure we are talking about; because I think everybody 
on this committee believes in the ability for greater energy 
efficiency here and would gladly support it. I would just 
believe that accountability is a greater opportunity here and 
ask for an aye vote.
    The Chairman. Any additional debate on the amendment? If 
not, the question is on the amendment.
    All those in favor say aye.
    All those opposed, say no.
    In the opinion of the Chair, the noes have it. And the noes 
have it, and----
    Mr. McCarthy. Could I ask for a recorded vote?
    The Chairman. The clerk will please call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Lungren.
    [No response.]
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Yes.
    The Clerk. Mr. Harper.
    Mr. Harper. Yes.
    The Clerk. Mr. Brady.
    The Chairman. No.
    The vote is two ayes, four noes. And the amendment fails.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.025
    
    The Chairman. Are there any additional amendments?
    Mr. McCarthy. Yes, Mr. Chairman.
    The Chairman. Mr. McCarthy is recognized for 5 minutes.
    Mr. McCarthy. I apologize for being a little delayed here. 
I am trying to help out Mr. Lungren too. Mr. Chairman, I have 
an amendment at the desk. I believe it was under Mr. Lungren's 
name. Does everyone have it?
    The Chairman. Yes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.026
    
    Ms. Lofgren. Which one is it?
    Mr. McCarthy. Page 2, insert after line 21 the following:
    Role of Architect of the Capitol.
    The Chairman. Number two.
    Mr. McCarthy. Mr. Chairman, it is no secret that I disagree 
with this bill. Given its underlying flaws, this amendment 
seeks only to provide modest changes designed to simply prevent 
a bad bill from becoming an operational calamity. The Architect 
is clearly responsible for the infrastructure of the buildings 
and providing the heating, cooling, and electrical systems as 
part of this infrastructure.
    This amendment ensures that any activities pursued under 
this authorization are coordinated through the AOC so that we 
can avoid disrupting the essential services provided by the 
AOC. The process outlined in this amendment will avoid the type 
of scenario that the members and staff experienced last fall 
when the CAO failed to properly coordinate with the AOC, 
overloaded a circuit in the House computing facility, and 
caused a lengthy disruption in the access to e-mail and Web 
services.
    When dealing with our essential heating, cooling, and 
electrical system, such a disruption could severely impact 
members and committee officers to function. As I stated 
earlier, this is just an amendment seeking only modest changes, 
asking that the CAO coordinate with the AOC so we do not have 
disruptions as we make fundamental changes.
    The Chairman. Are there any additional debate on the 
amendment?
    Ms. Lofgren. Mr. Chairman.
    The Chairman. Ms. Lofgren.
    Ms. Lofgren. I would note that as with the prior amendment, 
this is actually not a necessary amendment. It would require 
the CAO to get permission from the AOC before modifications to 
buildings or grounds. That is not necessary. The CAO already 
works with the AOC if there are any changes made to buildings 
or grounds. And so I would urge that the amendment be declined.
    The Chairman. Thank the lady. Any other additional debate 
on the amendment? If not, the question is on the amendment.
    All those in favor, say aye.
    All those opposed, say no.
    In the opinion of the Chair, the noes have it.
    Mr. McCarthy. May I ask for a roll call vote?
    The Chairman. The clerk will please call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Lungren.
    [No response.]
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Yes.
    The Clerk. Mr. Harper.
    Mr. Harper. Yes.
    The Clerk. Mr. Brady.
    The Chairman. No.
    The ayes are two, the noes are four. And the amendment 
fails. Are there any additional amendments?
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.027
    
    Mr. McCarthy. There are no additional amendments.
    The Chairman. If there are no additional amendments, the 
Chair now moves to report H.R. 1196 favorably to the House.
    All those in favor signify by saying aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it, and the bill 
is ordered reported to the House. Without objection, the motion 
to reconsider is laid upon the table.
    The next item of business is H.R. 1604. H.R. 1604, the 
Universal Right to Vote By Mail Act of 2009, introduced by our 
colleague, Representative Mrs. Davis from California. H.R. 1604 
would give all the voters the option to vote by mail in Federal 
elections for any reason.
    The bill removes restrictions like notary signatures and 
doctors' notes requiring imposed by some States on voters 
requesting absentee ballots. Some States do not allow travel, 
work, school, illness, or jury duty to count as valid excuses 
to request an absentee ballot. This bill does not require 
anyone to vote by mail. It just gives voters an option to vote 
by absentee ballot free from pointless hassles.
    Making voters jump through unnecessary hoops to vote 
absentee does nothing to increase security. It only decreases 
participation and convenience in voting.
    I would now like to recognize Ms. Davis for an opening 
statement.
    Mrs. Davis of California. Thank you very much. And thank 
you very much for bringing the bill forward.
    My interest in improving our elections goes back to the 
first major political experience that I had, which was serving 
as president of the San Diego League of Women Voters. I was 
active in the League because I believed our democracy is 
furthered through increased participation in the voting 
process. Democracy flourishes, we all know, when all Americans 
have an equal opportunity to participate in elections.
    Historically, the Federal Government has opened the doors 
to those shut out of the voting process, and our country has 
been much the better for it. So we should be proud of our 
Nation's history of removing obstacles for voters who have been 
left out of the voting process intentionally or 
unintentionally, whether they be women, racial minorities, 
members of the military, Americans living overseas, 18- to 21-
year-olds fighting for their country, or voters with 
disabilities.
    But we know that there are hardworking Americans that are 
still unable to vote for any number of reasons. And the next 
step is to give those who choose to participate and plan to 
vote the best chance to vote, no matter what comes up on 
Election Day. And we should remove unnecessary impediments to 
their participation by freeing them from such burdensome 
obstacles--and Chairman, you have noted this--to voting as 
notary requirements, doctors' notes, and invasive public record 
questions about vacation location, illnesses, pregnancies, 
religious obligations.
    Over half the States have no-excuse absentee voting. And 
millions of votes have proven it to be secure, successful, and 
popular. As Members of Congress and of this committee, we have 
a constitutional calling to allow States to administer 
elections, but to step in when there is a need, as there is 
here.
    H.R. 1604, the Universal Right to Vote By Mail Act, will 
correct what I believe is a glaring inequity, and I look 
forward to our discussion as we markup this bill today.
    Thank you, Mr. Chairman.
    The Chairman. I thank the lady.
    Mrs. Davis of California. I have letters in support here, 
and I will submit those for the record. Do you want me to read 
them all?
    The Chairman. No, no, just submit them. That would be fine.
    Mrs. Davis of California. Okay. Thank you.
    The Chairman. Thank you. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.028
    
    [GRAPHIC] [TIFF OMITTED] T2325A.029
    
    [GRAPHIC] [TIFF OMITTED] T2325A.030
    
    [GRAPHIC] [TIFF OMITTED] T2325A.031
    
    [GRAPHIC] [TIFF OMITTED] T2325A.032
    
    [GRAPHIC] [TIFF OMITTED] T2325A.033
    
    [GRAPHIC] [TIFF OMITTED] T2325A.034
    
    [GRAPHIC] [TIFF OMITTED] T2325A.035
    
    [GRAPHIC] [TIFF OMITTED] T2325A.036
    
    [GRAPHIC] [TIFF OMITTED] T2325A.037
    
    [GRAPHIC] [TIFF OMITTED] T2325A.038
    
    [GRAPHIC] [TIFF OMITTED] T2325A.039
    
    [GRAPHIC] [TIFF OMITTED] T2325A.040
    
    The Chairman. I would like to recognize Mr. McCarthy.
    Mr. McCarthy. For an opening statement?
    The Chairman. Yes.
    Mr. McCarthy. Thank you, Mr. Chairman. I am figuring out 
this microphone.
    Mr. Chairman, I am concerned that the committee has failed 
to hold a hearing on this legislation, H.R. 1604, that makes 
significant changes to voting procedures in 22 States. Each of 
these States likely enact their absentee voting requirements 
with a particular goal in mind, possibly preventing absentee 
voting fraud of the nature for which two individuals were 
arrested last week in New Jersey, or promoting civic engagement 
through in-person voting. Yet this committee is making a 
determination that any possible reasoning for justified 
absentee voting is inadequate and baseless, without even taking 
the time to consult those who would be affected.
    We know that last year the National Conference of State 
Legislatures expressed grave concerns in a letter commenting on 
the legislative predecessor, H.R. 281. In addition to asking 
this committee to consider the many financial costs this 
unfunded mandate would bring to the already overburdened 
election official, the NCSL stressed that there has been no 
showing that the State system utilizing procedures other than 
no-excuse absentee voting are dysfunctional or broken.
    In their letter they ask this committee to reconsider its 
decision to move this bill without consulting those who would 
bear the burden of implementing this legislation. At a time 
when so many State budgets are strained, we all know that 
election officers, most already operating on shoestring 
budgets, are one of the first agencies under the knife. It is 
highly doubtful that adequate resources would be allocated on 
the State level to accommodate the new Federal mandate created 
by this legislation.
    It seems to me, Mr. Chairman, that before we jump in and 
start telling local governments how they should run their 
elections, we should probably let them tell us what they think 
about our ideas.
    Currently, H.R. 1604 looks like a solution in search of a 
problem. And I would hope that before this committee takes any 
action on this legislation, we would undertake our due 
diligence and hold a hearing on this issue.
    Thank you, and I reserve the balance of my time.
    The Chairman. Thank the gentleman. I now call up and lay 
before the committee H.R. 1604. Without objection, the first 
reading of this bill is dispensed with, and the bill is 
considered as read and open for amendment at any point.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.041
    
    [GRAPHIC] [TIFF OMITTED] T2325A.042
    
    [GRAPHIC] [TIFF OMITTED] T2325A.043
    
    [GRAPHIC] [TIFF OMITTED] T2325A.044
    
    [GRAPHIC] [TIFF OMITTED] T2325A.045
    
    The Chairman. Is there any debate? Are there any 
amendments?
    Mr. Harper. Yes, sir, I have an amendment at the desk.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.046
    
    The Chairman. Recognize Mr. Harper for 5 minutes.
    Mr. Harper. Thank you. In the findings section of this 
legislation there are a number of assertions of fact that I 
think are simply wrong and that suggest States are creating 
rules without any reason. Finding number eight states that no 
evidence exists suggesting the potential for fraud in absentee 
balloting is greater than the potential for fraud by any other 
method of voting. Yet much of the vote fraud that we see 
prosecuted in this Nation comes from fraudulently requested or 
returned absentee ballots.
    Mr. Chairman, I would like to submit for the record an 
Associated Press article from Friday, June 5, 2009, just 5 days 
ago.
    The Chairman. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.047
    
    [GRAPHIC] [TIFF OMITTED] T2325A.048
    
    Mr. Harper. The article states that two former campaign 
workers were charged with absentee voting fraud in a recent 
mayoral race in Atlantic City. I would like to quote to the 
committee a pertinent section of the article which states the 
claims of absentee voting fraud, quote, increased in recent 
years when friends and relatives of Craig Callaway, the former 
city council president, now serving a Federal prison term for 
bribery, perfected the art of collecting and delivering 
hundreds of absentee ballots, close quote.
    I believe logic and common sense tell us that it is easier 
to vote fraudulently when voters do not have to show up in 
person. And the evidence backs that theory up.
    Finding number nine states that the excuses that many 
States require in order to request an absentee, do nothing to 
prevent voter fraud, yet we have not had a single hearing on 
this bill. We know the Supreme Court takes congressional 
findings seriously, and I believe we should take them seriously 
enough to have hearings before we make them.
    This amendment would remove these objectionable findings 
and other findings that make conclusory statements without 
offering proof to support them. I urge the committee to adopt 
this amendment.
    Thank you, and I reserve the balance of my time.
    The Chairman. Thank the gentleman. Any other--I would like 
to recognize Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman. I would 
just like to respond for a second, because I think that if my 
colleagues read that statement, I mean it basically says that 
there is potential for fraud. We have not been able to--we have 
zero tolerance for it, but at the same time we have not had 
zero accounts of it.
    However, it says there is no greater possibility than from 
other methods. And I think clearly, as we look at registrars, 
if we look at States, there is far greater fraud that we have 
discovered in those situations.
    The case quoted here is from Atlantic City. This is not a 
Federal election. And the possibility of suppression of votes 
is so far greater than the possibility of fraud in this 
instance. And that is why that statement is there. You may not 
agree with the statement, but I think in fact there is nothing 
that is not factual about the statement.
    Ms. Lofgren. Would the gentlelady yield?
    Mrs. Davis of California. Yes.
    Ms. Lofgren. I would just note that there were two hearings 
held on this subject in the last Congress as well. And I yield 
back.
    Mrs. Davis of California. That is true. And Mr. Chairman, I 
know we are going to be hearing a bill today which has not had 
a hearing as well. And I think sometimes we have that 
opportunity. We also had another hearing earlier this year, and 
the issues of absentee voting were also brought up at that 
time.
    The Chairman. I thank the gentlelady. Is there any 
additional debate on the amendment?
    If not, the question is on the amendment.
    All those in favor by signify by saying aye.
    All those opposed, no.
    In the opinion of the Chair, the noes have it. The noes 
have it, and the amendment is not agreed to. Any other 
amendments to the bill?
    Mr. McCarthy. Yes, I have one amendment. Amendment number 
two.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.049
    
    [GRAPHIC] [TIFF OMITTED] T2325A.050
    
    The Chairman. Mr. McCarthy.
    Mr. McCarthy. Everybody have it? This one is pretty 
straightforward. In essence, it does two things. It would 
require the State to have the voter's signature on file before 
they send out the ballot. And it would require that the State 
verify the signature matches when they receive the returned 
ballot. Again, a verification process that is already common 
practice for most States.
    I know in California, when you go to my election office, 
they will pull up, as the absentee ballot comes in, your actual 
signature of your voter registration. So it is just making sure 
that we have accountability as we go forward.
    And just to repeat again, it does two simple things. It 
requires the State to have a voter's signature on file before 
they send out the ballot, and it requires the State verify the 
signature match when they receive the returned ballot.
    Thank you. I would ask for support.
    The Chairman. Thank the gentleman. Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman. If I 
could say, I certainly appreciate the concern of my colleague, 
and California has that. And I think that what he is stating is 
that the use of a signature is a very valid way of telling 
whether or not the person is in fact that individual.
    In California, in addition to the fact that people are 
hired for this purpose alone, there are cameras, it is really a 
very secure way of checking to see if that is an accurate 
signature.
    And I think I said this before. My husband had a call from 
the registrar because his signature is not quite the same as it 
used to be, and so they asked him to give them a new signature. 
So I know that this is important. And I am happy to accept this 
amendment.
    But I also want to share with my colleague that in fact it 
is a tougher mandate for some States than the process without 
that signature. Many States that have no-excuse voting use a 
signature, some do not. Some have chosen not to do that. So we 
are putting some additional--what you would consider a mandate 
I think; although I will share in my comments, if it does 
arise, that this is not considered a mandate, it is a voting 
right, and so therefore it is not considered a cost mandate by 
our government.
    But the signature issue is one that I happen to think is 
important, so I would support it.
    The Chairman. Thank the gentlelady. Any additional debate 
on the amendment? If not, the question is on the amendment.
    All those in favor signify by saying aye.
    Any opposed?
    The ayes have it. The amendment is agreed to. And for the 
record, my signature is getting shorter and shorter the older I 
get. Any other additional amendments?
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.051
    
    The Chairman. Mr. Harper is recognized for 5 minutes.
    Mr. Harper. Thank you. It is of great concern to me that at 
a time when our States are facing millions, sometimes billions 
of dollars in budget deficits, this committee is considering 
adding another unfunded Federal mandate for them to have to 
absorb. This amendment would help allay these concerns by 
allowing States to opt out of the new requirements of this 
legislation if they, A, make a showing that implementing this 
legislation would increase their costs of election 
administration, and B, they are not able to pay for those costs 
out of existing grant funding or other money provided by the 
Federal Government in support of this bill. I think this is a 
reasonable and responsible amendment, and I urge its adoption.
    Thank you, and I reserve the balance of my time.
    The Chairman. Thank the gentleman. Is there any additional 
debate on the amendment?
    Mrs. Davis of California. Thank you, Mr. Chairman. The CBO 
has determined that this bill is not an unfunded mandate. And 
in fact, it wrote last year the following about H.R., at that 
time, 281: CBO estimates that implementing H.R. 281 would have 
no impact on the Federal budget. Section 4 of the Unfunded 
Mandates Reform Act excludes from the application of that act 
any legislative provisions that enforce the constitutional 
rights of individuals. CBO has determined that H.R. 281 would 
fall within that exclusion because it would protect 
individuals' voting rights.
    And I think, Mr. Chairman, when it comes to cost, the 
Virginia Registrar, Rokey Suleman's letter--and he spoke here 
just a few months ago about the fact that he has got a drawer 
full of applications from individuals because of the 
restrictions in their absentee voting. And it takes thousands 
of dollars, he said, out of his budget for the increase in man-
hours, postage, and supplies needed to process these 
applications. There is a tremendous waste of valuable tax 
dollars. And no-excuse access to a ballot through the mail will 
save my office thousands of dollars in processing and overtime 
costs. I submit that it is not a factor in this case.
    The Chairman. Thank the lady. Is there any additional 
debate on the amendment?
    Mr. Harper. May I be recognized, Mr. Chairman?
    The Chairman. Certainly.
    Mr. Harper. If I may ask a question of the author of this 
bill, you argued this bill is not an unfunded mandate because 
it would enforce a constitutional right. And I see that you 
have a CBO statement which backs that up. But I am wondering 
where you find this right to an absentee ballot in the 
Constitution. And I say that because the U.S. Supreme Court has 
not been able to find it. In fact, in 1973 in Prigmore versus 
Renfro, the opinion stated the right to vote is unquestionably 
basic to a democracy, but the right to an absentee ballot is 
not. Historically, the absentee ballot has always been viewed 
as a privilege, not an absolute right.
    Mrs. Davis of California. Well, thank you. I appreciate my 
colleague bringing that forward, because it has said there is 
no fundamental right to vote by absentee except to the extent 
that Congress has created such a right in Presidential and 
other Federal elections. And in fact, that is why we are here. 
I mean that is the obligation that we have; that when we see 
inconsistencies, when we see disenfranchisement of voters, when 
we see that there is no longer a rational basis for allowing 
some people to vote and others not to, then I think it is 
important for the Congress to step forward. And that is what we 
are doing, we are trying to create that right.
    The Chairman. I thank the gentlelady.
    Any other additional debate on the amendment? If not, the 
question is on the amendment.
    All those in favor, signify by saying aye.
    Those opposed, no.
    In the opinion of the Chair, the noes have it. The noes 
have it, and the amendment is not agreed to. Are there any 
additional amendments?
    If not, I now move to report H.R. 1604, as amended, 
favorably to the House. The question is on the motion.
    All those in favor, vote aye.
    Any opposed?
    In the opinion of the Chair, the ayes have it, and the 
bill, as amended, will be reported to the House without 
objection.
    Mr. McCarthy. I would ask for a roll call vote.
    The Chairman. The clerk will please call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Mr. Capuano.
    Mr. Capuano. Aye.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. Aye.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Lungren.
    [No response.]
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. No.
    The Clerk. Mr. Harper.
    Mr. Harper. No.
    The Clerk. Mr. Brady.
    The Chairman. Aye.
    The ayes have it. Four ayes, two noes. In the opinion of 
the Chair, the ayes have it, and the bill, as amended, will be 
reported to the House.
    Without objection, the motion to reconsider is laid upon 
the table.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.052
    
    The Chairman. Pursuant to request, the members have two 
additional days provided by the House rules to file. We are 
going to recess now. We have a vote on. We have no time left, 
so we have to scurry on down. And we will recess for hopefully 
about a half hour. We will be back. And the committee is now in 
recess.
    [Recess.]
    The Chairman. I would like to call the Committee on House 
Administration back to order. And the first order of business 
will be H.R. 512, the Federal Election Integrity Act introduced 
by Mrs. Davis.
    H.R. 512 will prohibit chief State election officials from 
actively participating in electoral campaigns. Across the 
country, recent elections have exposed some State-elected 
officials with disturbing conflicts of interest. Certain State-
elected officials have participated in partisan political 
activities or have held positions on campaign committees of 
Federal candidates even as those State officials administer 
elections. This has damaged America's faith and the integrity 
of our electoral system.
    H.R. 512, the Federal Election Integrity Act, is a 
straight-forward good government bill that will prohibit chief 
State election officers from taking an active part in 
campaigning for or managing a Federal candidate's political 
campaign in any election of which the official is supervising 
the authority. It does not prohibit State election officials 
from overseeing elections in which they are candidates. It 
simply prevents the State election official from unfairly 
acting like a coach and a referee in the same game.
    I understand that Representative Davis has been working 
with interested stakeholders and will be offering a substitute 
for this bill. And I would now like to recognize Representative 
Davis for an opening statement.
    Mrs. Davis of California. Thank you very much, Mr. 
Chairman. And thank you again for bringing this forward.
    Democracy flourishes, we know, when voters have confidence 
that the electoral process is fair and their chief election 
officials are above reproach. Public confidence in elections is 
undermined when election officials are accused of favoring 
their political party or playing politics with election 
administration.
    The passage of H.R. 512, the Federal Election Integrity 
Act, would serve to remove the threat of such political 
posturing by limiting partisan activity by chief State election 
administrators. Since its introduction, I have made some 
changes to improve the bill in response to recommendations from 
election officials and the Federal Election Commission, and I 
will be introducing a substitute shortly. And I urge my 
colleagues to support this bill.
    The Chairman. I thank the lady. Mr. McCarthy, opening 
statement.
    Mr. McCarthy. Thank you, Mr. Chairman, an opening statement 
for Mr. Lungren. Thank you, Mr. Chairman. I am troubled by the 
suggestion and implication that this bill, that Congress should 
restrict a citizen's First Amendment right to participate in 
the political process where there has been no showing of 
malfeasance or nonfeasance to warrant such a sweeping 
restriction on speech. I am suspicious anytime that Congress 
seeks to deny a citizen the right to actively support a 
candidate of his or her choosing.
    However, even more troubling is the underlining tenor of 
this bill, which seems to presuppose that the State's election 
officials are incapable of demonstrating impartiality and 
fulfilling their oath of office. If it is accepted, then we set 
the stage for excluding a whole host of election officials from 
Secretary of State down to the Registrar of voters and poll 
workers. If we cannot trust Secretaries of State, why should we 
trust anyone to show impartiality in the administration of 
elections when they have shown a political predisposition?
    However, if we accept as fundamental the lack of 
impartiality that this bill suggests, why should we believe 
that an absence from formal participation in campaign 
activities would do anything to lessen election officials' 
propensity for misconduct. We must be vigilant protectors of 
both the integrity of Federal elections and the rights of our 
citizens to participate in the election of their Federal 
officials.
    I am concerned that this bill endangers both those 
fundamental principles, while at the same time trampling on the 
civil liberties of our elected officials without cause. For 
these reasons, I hope the committee will join me in opposing 
the legislation. Thank you and I reserve the balance.
    The Chairman. I thank the gentleman. I now call up and lay 
before the committee H.R. 512. Without objection, the first 
reading of the bill is dispensed with and the bill is 
considered as read and open for an amendment in a point.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.053
    
    [GRAPHIC] [TIFF OMITTED] T2325A.054
    
    [GRAPHIC] [TIFF OMITTED] T2325A.055
    
    [GRAPHIC] [TIFF OMITTED] T2325A.056
    
    [GRAPHIC] [TIFF OMITTED] T2325A.057
    
    The Chairman. And I would now like to recognize the 
gentlelady from California to offer an amendment.
    Mrs. Davis of California. Thank you, Mr. Chairman. I offer 
an amendment in the nature of a substitute which is in the 
members; packets and ask unanimous consent that the amendment 
be considered as read.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.058
    
    [GRAPHIC] [TIFF OMITTED] T2325A.059
    
    [GRAPHIC] [TIFF OMITTED] T2325A.060
    
    [GRAPHIC] [TIFF OMITTED] T2325A.061
    
    The Chairman. I thank the gentlelady. Is there any 
additional debate on the amendment?
    Mrs. Davis of California. Mr. Chairman, I think that the 
manager's amendments will really help to sway any of the 
concerns that my colleagues have on this bill because it is 
very specific about prohibiting campaign activities by chief 
State election and administration officials. This is not 
sweeping. We have worked with the FCC on this, and I think we 
would all agree that when it comes to Federal elections and the 
chief election official of that State, that there needs to be 
utmost integrity and perception that this is a fair process. I 
ask for members' support on this amendment.
    The Chairman. I thank the lady. Any additional debate on 
the amendment? Mr. McCarthy.
    Mr. McCarthy. If I may ask the author just a question. 
Knowing that it says the chief State officer, what about if 
your county election officer, which is elected countywide, what 
was the rationale for excluding them in the process as well?
    Mrs. Davis of California. In working with the FCC on this, 
that is the determination that we made; that that is our 
authority, that is our jurisdiction. So that is why we wanted 
to do it in this fashion. This is the jurisdiction that we 
have.
    Mr. McCarthy. Did you think, originally writing the bill, 
that you would include county election officers as well?
    Mrs. Davis of California. The original bill was not as 
specific, and that is why when we started working with them, we 
felt that we wanted to stay within our jurisdiction on this 
bill.
    Mr. McCarthy. And then what if the election officer is 
going to run for office but run for a different office? They 
are fine--
    Mrs. Davis of California. This does not exclude in any way 
that individual from running for State office, for an office 
themselves. And, in fact, we have seen that. They are allowed 
to do that. While they are still holding that office, they can 
still file for a different office.
    Mr. McCarthy. Okay. So if I am Secretary of State of my 
State and I have a family member running for Governor or 
something else, I can help with that one?
    Mrs. Davis of California. The bill actually does have an 
exclusion for family members.
    Mr. McCarthy. Even though that family member is running for 
Governor or running for any office, it is okay for family, but 
not to participate in any other.
    Mrs. Davis of California. Right.
    Mr. McCarthy. Okay. I just wanted clarification. Thank you.
    The Chairman. Any additional debate on the amendment? No 
further debate. The question is on the amendment in the nature 
of a substitute.
    All those in favor, signal by saying aye.
    Any opposed, say no.
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    I now move to report H.R. 512, as amended, favorably to the 
House.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it and the bill, 
as amended, will be reported to the House. Without objection, 
the motion to reconsider is laid upon the table.
    We will now consider H.R. 2393, the Military Voter 
Protection Act.
    I share in Mr. McCarthy's commitment to ensure that all 
ballots sent from the military and overseas voters abroad 
arrive on time and that their votes are counted. In fact, we 
met with the United States Postal Service and the Military 
Postal Service this week to discuss the process they have in 
place to expedite these ballots. We have learned that over the 
past few election cycles, the postal service had been offering 
free express mail and tracking service to all voters who send 
their ballots back to the U.S. Within one week of election day.
    I would like to recognize now the sponsor of this bill, Mr. 
McCarthy.
    Mr. McCarthy. First, I just want to thank the Chairman for 
working with us on this bill, and I appreciate his wisdom as we 
move forward. For over a year, I have been working with our 
colleagues here in the House, as well as those in other 
Chambers, to pass legislation that would help make those votes 
count of our heroes serving and protecting our Nation abroad.
    Mr. Chairman, I am grateful you scheduled my bill, H.R. 
2393, the Military Voting Protection Act, to be marked up 
today. Since the enactment of UOCAVA in 1986, which provides 
overseas voters backup Federal write-in absentee ballots, there 
has been report after report detailing the disenfranchisement 
of military personnel to inadequate ballot delivery methods. 
The most recent in 2007 by the EAC reported that out of 992,000 
ballots sent to military and overseas voters for the 2006 
election, over 660,000 were never returned to election 
officials to be counted.
    We don't need another report, nor can we stand idly by as 
we watch more of our troops' votes go uncounted. We must take 
action.
    I am pleased that this bipartisan commonsense legislation 
that I introduced, along with our colleague from Oklahoma, Dan 
Boren, will establish procedures for the collection, return 
transportation and tracking of marked absentee ballots of our 
troops serving overseas. This bill will use express mail 
delivery services of the postal service to help ensure those 
who fight for our freedoms can have their votes counted.
    This will help our troops, and I am pleased that the MVP 
has been endorsed by the Military Coalition, a consortium of 31 
military and veterans organizations. With that, I urge an 
``aye'' vote and yield back the balance of my time.
    The Chairman. I thank the gentleman.
    I now call up and lay before the committee H.R. 2393. 
Without objection, the first reading of the concurrent 
resolution is dispensed with. And without objection, the 
concurrent resolution is considered as read and open for 
amendment at any point.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.062
    
    [GRAPHIC] [TIFF OMITTED] T2325A.063
    
    [GRAPHIC] [TIFF OMITTED] T2325A.064
    
    [GRAPHIC] [TIFF OMITTED] T2325A.065
    
    [GRAPHIC] [TIFF OMITTED] T2325A.066
    
    [GRAPHIC] [TIFF OMITTED] T2325A.067
    
    [GRAPHIC] [TIFF OMITTED] T2325A.068
    
    [GRAPHIC] [TIFF OMITTED] T2325A.069
    
    [GRAPHIC] [TIFF OMITTED] T2325A.070
    
    [GRAPHIC] [TIFF OMITTED] T2325A.071
    
    The Chairman. Is there any debate? Mrs. Davis from 
California.
    Mrs. Davis of California. Mr. Chairman, just for the 
record, did we have a hearing on this bill?
    Mr. McCarthy. Well, I appreciate the question. If I can 
answer for the Chairman. In March, we had a hearing on the 2008 
elections where the military votes were prominent. Last month 
we did have a hearing specifically devoted to military and 
overseas voting where H.R. 2393 was discussed. The committee 
explored the issue, and I am pleased we are acting today. And 
in the last Congress we did have a hearing before the committee 
as well on the bill itself. And the only changes from the past 
bill to present were the ideas that it was going to be the 
postal service with the help of the Chairman advice on that.
    The Chairman. Any other debate? Are there any amendments to 
the bill?
    Mrs. Davis of California. Mr. Chairman, if I will, I just 
wanted to ask that question really for the record, but also to 
represent to the author that I am in support of this bill. I 
think it makes it easier and quicker for us to process those 
absentee ballots and that having more standardized absentee 
ballots throughout the country also would be an assist to our 
military. So I hope that we can continue to work on this issue 
in the future. Thank you, Mr. Chairman.
    The Chairman. I thank the lady. I now move to report H.R. 
2393 favorably to the House.
    All those in favor, say aye.
    Any opposed?
    In the opinion of the Chair, the ayes have it. And the bill 
will be reported to the House, without objection. The motion to 
reconsider is laid upon the table.
    I don't want to bring this bill up, especially when the 
sponsor is on her way, right down the hall. So if we could just 
hold off for a moment or two, hopefully for like about a 1-
minute recess, and Ms. Lofgren will be here. And I appreciate 
your indulgence. Thank you.
    [Recess.]
    The Chairman. I would like to call our committee back to 
order again. The next item on the agenda is H.R. 2728, the 
William Orton Law Library Improvement and Modernization Act, 
sponsored by Vice Chair Lofgren and Ranking Member Lungren.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.072
    
    [GRAPHIC] [TIFF OMITTED] T2325A.073
    
    [GRAPHIC] [TIFF OMITTED] T2325A.074
    
    [GRAPHIC] [TIFF OMITTED] T2325A.075
    
    [GRAPHIC] [TIFF OMITTED] T2325A.076
    
    [GRAPHIC] [TIFF OMITTED] T2325A.077
    
    [GRAPHIC] [TIFF OMITTED] T2325A.078
    
    [GRAPHIC] [TIFF OMITTED] T2325A.079
    
    The Chairman. The law library of the Library of Congress, 
established in 1832 with a collection of over 30 million 
volumes, is the largest law library in the world. The books 
housed in the Library cover almost every adjudication in the 
world. I ask unanimous consent to put my statement in the 
record for brevity because I know we have a lot of other things 
to be doing.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.080
    
    The Chairman. And I will now recognize Mr. McCarthy for an 
opening statement.
    Mr. McCarthy. Thank you, Mr. Chairman. And in light of your 
last statement, I would like to just submit for the record Mr. 
Lungren's comments on this bill which he is very supportive and 
a co-author of.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.081
    
    [GRAPHIC] [TIFF OMITTED] T2325A.082
    
    The Chairman. I thank the gentleman. Ms. Lofgren, would you 
like to make an opening statement?
    Ms. Lofgren. Thank you, Mr. Chairman. I appreciate the 
committee's pausing so I could get over here from chairing the 
California delegation meeting. And I am pleased to have 
authored this bill with our colleague, Mr. Lungren.
    The bill is named after William Orton, a Member of the U.S. 
House of Representatives in Utah's Third District from 1991 to 
1997, who passed away in April of this year. Bill was a 
tireless advocate for the law library and we think this 
legislation is a fitting way to honor his memory.
    The law Library of Congress maintains a unique and world-
renowned collection. This bill will help ensure that the law 
library will have the resources needed to maintain and expand 
its collections while at the same time modernizing its system.
    The act includes authorizing 3.5 million for maintaining 
and administering the operations of the law library, including 
the cataloging of the collections--without the catalogs, the 
collections are not accessible; a line item for the law library 
to ensure the autonomy and ability to improve the law library 
and creation of the William Orton program.
    The donations are provided for in-kind contributions in 
support of the program, and the bill also requires an annual 
report. It authorizes to be appropriated for the program an 
amount--this is the Orton program--of 40 percent of the amount 
of the donations accepted by the Library of Congress Trust Fund 
Board. In support of this legislation is the American Bar 
Association, the American Association of Law Libraries and the 
Northern California Association of Law Libraries.
    And the American Association of Law Libraries and the 
Northern California Association of Law Libraries have letters 
that I would ask unanimous consent be----
    The Chairman. Without objection.
    Ms. Lofgren [continuing]. Submitted to the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.083
    
    [GRAPHIC] [TIFF OMITTED] T2325A.084
    
    Ms. Lofgren. I do have one amendment that I believe Mr. 
Lungren concurs in. It is a minor matter of when that is 
appropriate.
    And with that, I would yield back.
    The Chairman. I thank the gentlelady.
    I now call up and lay before the committee H.R. 2728. 
Without objection, the first reading of the bill is dispensed 
with and the bill is considered as read and open for amendment 
at any point.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.085
    
    [GRAPHIC] [TIFF OMITTED] T2325A.086
    
    [GRAPHIC] [TIFF OMITTED] T2325A.087
    
    [GRAPHIC] [TIFF OMITTED] T2325A.088
    
    [GRAPHIC] [TIFF OMITTED] T2325A.089
    
    [GRAPHIC] [TIFF OMITTED] T2325A.090
    
    [GRAPHIC] [TIFF OMITTED] T2325A.091
    
    [GRAPHIC] [TIFF OMITTED] T2325A.092
    
    The Chairman. The Chair now recognizes the Vice Chair, Ms. 
Lofgren, to offer an amendment.
    Ms. Lofgren. Thank you, Mr. Chairman. I offer an amendment. 
I think it is before the House.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T2325A.093
    
    Ms. Lofgren. Basically the amendment changes the name of 
the law Library of Congress to the National Law Library. It is 
a simple change, but, coupled with a full bill, would do much 
to increase the role and status of the law library. I believe 
that the library has no objection to this name change and that 
Mr. Lungren concurs.
    The bill and this amendment are a great step forward in 
making the National Law Library a first-class library that 
Congress, legal researchers, and members of the public deserve. 
And I would just like to note this is an issue that I think is 
enormously important for the country, but it is not one that 
everybody pays attention to. Certainly the Bar Association and 
the advocates, the law librarians, and the late Bill Orton 
spent a lot of time in promoting this. And I really am grateful 
to them for putting in the volunteer time to get us to this 
point today. And I would yield back.
    The Chairman. I thank the gentlelady. Is there any 
additional debate on the amendment?
    If not, the question is on the amendment.
    All those in favor say, aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Are there any additional amendments? If not, I now move to 
report H.R. 2728 favorably to the House, as amended.
    All those in favor, say aye.
    Those opposed, no.
    In the opinion of the Chair, the ayes have it and the bill, 
as amended, is ordered reported to the House without objection. 
The motion to reconsider is laid upon the table.
    I now ask unanimous consent to include in the record 
various correspondence relating to the legislation we 
considered today.
    Without objection, the staff is authorized to make 
technical and conforming changes to the various measures 
considered today.
    We had also anticipated a committee resolution to implement 
recommendations from the House Inspector General, but staff is 
still working to clear the language with all the interested 
parties. We will take that up at our next meeting.
    The Committee on House Administration stands adjourned. 
Thank you all.
    [Whereupon, at 12:47 p.m., the committee was adjourned.]

</pre></body></html>
